•

MOLOLAMKEN

Jeffrey A. Lamken
Molo Lamken LLP
The Watergate, Suite 660
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
T: 202.556.2010
F: 202.536.2010
F: 202.556.2001
jlamken@mololamken .com
www.mololamken.com

November 5, 2019

BY HAND DELIVERY
ScottS. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Intel Corporation, et al. v. Continental Circuits LLC, No. 19-571 (on
Petition for a Writ of Certiorari)

Dear Mr. Harris:
Petitioners Intel Corporation, Ibiden U.S.A. Corporation, and Ibiden Company
Limited filed a petition for a writ of certiorari in the above-captioned matter on October
28, 2019, and the case was placed on the Court's docket on October 31, 2019. Because the
case clearly does not warrant review by this Court (as is shown by the decision below),
respondent Continental Circuits LLC waives the right to file a brief in opposition.
If the Court wishes to see a brief in opposition, we will, of course, promptly file one.

cc:

Donald B. Verrilli Jr.

